March 22, 2002

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Management Advisory – Trailer Damage
         (Report Number-TD-MA-02-002)

This management advisory presents the results of our self-initiated review of the Postal
Service trailer fleet (Project Number 00PA032TR003) and is part of a series of reports
on this subject. The objective of the review was to determine whether Postal Service
initiatives, policies, and procedures were effective in controlling the cost of damage to
trailers the Postal Service owns.

The review revealed the Postal Service had several significant and positive initiatives,
as well as existing management controls, to reduce trailer damage. However, the
Postal Service has an opportunity to save up to $1 million annually, or $5 million over
the next 5 years, by reducing unnecessary damage to trailer doors. We recommended
that Postal Service managers issue training videos on proper load securing procedures
to all areas, and emphasize the importance of using effective management controls like
safety posters, checklists, inspection sheets, and irregularity reports. Management
commented on the report and agreed with all our findings and recommendations.
Management’s comments, and our evaluation of these comments, are included in the
report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation and Delivery, at (703) 248-2100, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

cc: John A. Rapp
    Anthony M. Pajunas
    Susan M. Duchek
Trailer Damage                                                        TD-MA-02-002




                            TABLE OF CONTENTS

Executive Summary
                                                        i

Part I


Introduction                                                             1


   Background                                                            1

   Objective, Scope, and Methodology                                     1

   Prior Report Coverage                                                 2


Part II


Results                                                                  4


   Trailer Damage                                                        4

      Unnecessary Damage                                                 5

      Equipment Availability and Use                                     5

      Postal Service Training and Damage Control Initiatives             8

   Recommendations                                                       9

   Management’s Comments                                                 9

   Evaluation of Management’s Comments                                  10


Appendix A. Statistical Sampling and Projections for Trailer Damage     11


Appendix B. Safety Notice                                               18


Appendix C. Vehicle Safety Checklist                                    19


Appendix D. Vehicle Safety/Load Security Review                         20


Appendix E. Management’s Comments                                       21





                                 Restricted Information
Trailer Damage	                                                                      TD-MA-02-002



                       EXECUTIVE SUMMARY
Introduction        Every day, Postal Service and contract drivers transport
                    trailers to and from mail facilities, equipment facilities, and
                    the plants of large customers. The Postal Service operates
                    almost 17,000 trailers at a cost of more than $50 million
                    annually. This management advisory is part of a series of
                    reports on the subject of the Postal Service trailer fleet.
                    This self-initiated review focuses on opportunities to save
                    costs due to damage to trailers the Postal Service owns.
                    We estimated that repairing damage to these trailers costs
                    the Postal Service more than $3 million every year.




                          Figure 1. Postal Service tractor and trailer at a mail facility.


Results in Brief	   Our review revealed the Postal Service had several
                    significant and positive initiatives to reduce trailer damage.
                    However, the Postal Service has an opportunity to save up
                    to a projected $1 million annually, or a forecast of $5 million
                    over the next 5 years, by reducing unnecessary damage to
                    trailer doors. Specifically, we concluded trailer door
                    damage was a significant avoidable cost, caused primarily
                    by cargo that was not properly loaded or secured.
                    Consequently, cargo shifted in transit and caused damage
                    to the trailer doors. Interviews we conducted with Postal
                    Service employees indicated cargo was improperly loaded
                    because necessary equipment was not always available, or
                    available equipment was not always used. This information
                    was reinforced by our observations and inspections during
                    visits to Postal Service facilities. As a result of these and
                    other deficiencies, many trailer doors were unnecessarily
                    damaged—and we projected this damage cost the Postal
                    Service $1 million during fiscal year (FY) 2000.


                                         i
                              Restricted Information
Trailer Damage                                                               TD-MA-02-002




                        Although this review revealed the Postal Service could
                        reduce costs, it also revealed the Postal Service had a
                        number of positive initiatives and existing management
                        controls in place to prevent damage to trailers, including
                        training employees and accounting for equipment needed to
                        secure cargo. For example, a training video developed by
                        the Northeast Area entitled “Shoring for Safety,” used video
                        technology to explain proper loading procedures. Other
                        initiatives and management controls included safety
                        posters, checklists, inspection sheets, and the Postal
                        Service Irregularity Report, Form 5500 (PS Form 5500),
                        used for reporting deficiencies identified on checklists, so
                        missing or unserviceable equipment could be replaced or
                        repaired.

Summary of	             We recommended that management issue training videos to
Recommendations	        all areas, on proper load securing procedures, and
                        emphasize the importance of using effective management
                        controls like safety posters, checklists, inspection sheets,
                        and the PS Form 5500.

Summary of              Management agreed with all of our findings and
Management’s            recommendations. They stated they would distribute the
Comments                Northeast Area video to all facilities responsible for loading
                        trailers, and would post vehicle restraining and loading
                        procedures on their web page. Further they stated they
                        would advise all areas by memorandum regarding the
                        importance of following loading policies and guidelines, and
                        using safety posters, checklists, inspection sheets, and
                        irregularity reports. Finally they stated that in addition to
                        agreeing with our recommendations, they would implement
                        a web based information management system that would
                        allow identification of originating facilities that did not
                        properly secure loads, and allow management to follow-up
                        with facilities that did not adhere to load restraint
                        procedures. Management stated the information
                        management system would be implemented by
                        September 2002. Management’s comments, in their
                        entirety, are included in Appendix E of this report.

Overall Evaluation of   Management’s comments are responsive to our findings and
Management’s            recommendations. Management’s actions, taken or
Comments                planned, will effectively address the issues identified in this
                        report.


                                            ii
                                 Restricted Information
Trailer Damage                                                                                   TD-MA-02-002



                                 INTRODUCTION
Background              Transporting by trailer is one of the most cost effective ways
                        to move large volumes of mail and related equipment.
                        Every day, Postal Service employees and contract drivers
                        haul trailers to and from mail processing and distribution
                        centers, airmail facilities, mail transport equipment service
                        centers, bulk mail centers, and the plants of large
                        customers. The Postal Service operates almost
                        17,000 trailers at a total cost of more than $50 million
                        annually. Most trailers are leased, but more than 5,000 are
                        owned by the Postal Service. In April 2000, we initiated an
                        audit to evaluate the safety and security of the trailer fleet,
                        and to identify opportunities for cost savings. This
                        management advisory is part of a series of reports, and
                        focuses on damage to trailers the Postal Service owns. We
                        projected this damage could cost the Postal Service more
                        than $3 million every year.




                              Figure 2. Postal Service tractor and trailer arriving at a mail facility.



Objective, Scope, and   The objective of this report was to determine whether Postal
Methodology             Service initiatives, policies, and procedures were adequate
                        to reduce trailer damage.

                        To accomplish our objective, we observed operations at
                        Postal Service facilities. We interviewed contractors and
                        Postal Service officials at headquarters and in the field,
                        including officials and employees assigned to vehicle
                        maintenance facilities. We reviewed Postal Service policy
                        documents including Postal Service Handbook PO-701,



                                              1
                                   Restricted Information
Trailer Damage                                                       TD-MA-02-002



                 Fleet Management, dated March 1991; Postal Service
                 Handbook PO-502, Container Methods, dated
                 September 1992; and Handbook M-22, Dispatch and
                 Routing Procedures, dated October 1994. We analyzed
                 Postal Service vehicle safety procedures, vehicle safety
                 checklists, and Postal Service safety training materials. We
                 used computer assisted assessment techniques to extract
                 fiscal year (FY) 2000 trailer repair cost data from the Postal
                 Service’s vehicle maintenance accounting system, and used
                 the data to conduct statistical sampling. To conduct
                 sampling we randomly selected 55 vehicle maintenance
                 facilities and a total of 1,738 trailers assigned to those
                 facilities. Trailers were divided into three separate model
                 year categories. Model years 1984 through 1987 consisted
                 of 1,011 trailers assigned to 69 vehicle maintenance
                 facilities; model years 1991 through 1992 consisted of
                 1,019 trailers assigned to 74 vehicle maintenance facilities;
                 and model year 1998 consisted of 1,986 trailers assigned to
                 85 vehicle maintenance facilities. After we identified our
                 sample locations, we visited sites, reviewed maintenance
                 work-orders and related documents, analyzed and coded
                 damage by type, and finally projected our results to a
                 national statistical population. A detailed description of our
                 statistical methodology is contained in Appendix A.

                 Work associated with this report was conducted from
                 January 2001 until March 2002 in accordance with the
                 President’s Council on Integrity and Efficiency, Quality
                 Standards for Inspections. We discussed our conclusions
                 and recommendations with appropriate management
                 officials and included their comments, where appropriate.

Prior Report     Safety and Security of the Postal Service Leased Trailer
Coverage         Fleet (TR-AR-01-002), dated March 30, 2001, concluded
                 the Postal Service could save more than $390,000 annually,
                 or almost $2 million over a 5-year period, by properly
                 administering damage claims on leased trailers. The claim
                 processing deficiencies were caused by the Postal Service
                 not having effective claim processing policies. We
                 recommended the Postal Service revise and update their
                 policies and procedures governing trailer damage claims.
                 The Postal Service agreed and issued Management
                 Instruction, Processing Trailer Damage Claims, dated
                 May 24, 2001.




                                     2
                          Restricted Information
Trailer Damage                                                    TD-MA-02-002




                 Leased Trailer Deficiencies in the New York Metro Area
                 (TR-MA-01-001), dated March 30, 2001, concluded that
                 certain trailers in the New York Metro Area appeared to be
                 unsafe, in substandard condition, and had a deteriorated
                 appearance that reflected poorly on the Postal Service. We
                 made four recommendations, to which management
                 agreed, in order to address the issues identified in our
                 report.




                                    3
                         Restricted Information
Trailer Damage	                                                           TD-MA-02-002



                                  RESULTS
Trailer Damage	     The Postal Service had several significant and positive
                    initiatives to reduce trailer damage. However, the Postal
                    Service has an opportunity to save up to a projected
                    $1 million annually, or a forecast of $5 million over the next
                    5 years, by reducing unnecessary damage to trailer doors.
                    Based on our statistical sample, we projected the total cost
                    of repairing damage to Postal Service owned trailers during
                    FY 2000 was about $3 million. We then segregated
                    damage costs into categories including trailer doors, tires,
                    body damage, trailer frames, and electrical systems—and
                    identified the most costly categories. Some categories, like
                    tire damage, resulted from operating conditions that were
                    not easily avoided. However, our analysis revealed trailer
                    door damage was by far the most significant avoidable cost.
                    We projected this unnecessary cost accounted for more
                    than 30 percent of all damage, or more than $1 million
                    annually. Figure 3 shows the various types of trailer damage
                    that occurred and the percentage of total estimated costs
                    associated with each type.


                                       Figure 3
                    Fiscal Year 2000 Projected Cost of Damages to
                            Postal Service Owned Trailers

                                    Other	                Body Damage

                                     13%	                         9%
                     Tires
                                                                                 Doors
                      22%
                                                                                  31%




                  Electrical
                                                              Frame/Floor
                      9%                Running Gear
                                                                     7%
                                                  9%




                                          4
                               Restricted Information
Trailer Damage	                                                                         TD-MA-02-002



Unnecessary Damage
       Unnecessary damage to trailer doors was caused, in large
                          part, by cargo that was not properly loaded or secured.
                          Consequently, the cargo shifted in transit and resulted in
                          damage. For example, Figure 4 below illustrates how cargo
                          can shift when it is not properly secured. In this case, the
                          load shifted in transit and jammed against the door. As a
                          result, personnel were required to use a forklift to pry the
                          door open.




                                    Figure 4. Example of unsecured load that shifted.


                          Observations we made at Postal Service vehicle
                          maintenance facilities we visited, and discussions we had
                          with Postal Service employees, indicated cargo was
                          improperly loaded because:

                          •   Necessary equipment was not always available.

                          •   Available equipment was not always used.

Equipment Availability	   Postal Service Handbook PO-701, Fleet Management,
and Use                   dated March 1991, Handbook PO-502 Container Methods,
                          dated September 1992, and Postal Service Headquarters
                          memorandum, “Unsafe Loading and Restraining
                          Procedures,” dated February 2, 2001, all require trailers to
                          use load securing equipment. Such equipment includes
                          safety chains, locks, straps, shoring bars, and load restraint
                          systems like “E” tracks, as well as safety posters illustrating



                                              5
                                   Restricted Information
Trailer Damage                                                                  TD-MA-02-002



                 proper loading and securing techniques. Figures 5 and 6,
                 below, illustrate some of this equipment. Figure 5 depicts a
                 loaded trailer arriving at a facility with an unused shoring bar
                 on the trailer floor. The bar would normally fasten to the
                 “E” tracks on the sides of the trailer. Employees explained
                 the Postal Service is moving away from shoring bars to
                 secure equipment, and is focusing on using safety straps
                 instead.


                                                       SHORING BAR




                  Figure 5. Proper load security requires two restraining devices. In this
                    photograph there is only one strap and the shoring bar is not used.


                 Figure 6 provides a good view of an “E” track to which
                 straps or shoring bars are normally secured. The employee
                 pictured is in the process of securing mail containers with a
                 safety strap attached to an “E” track.


                                                                      “E” TRACK




                 Figure 6. Employee in process of securing load using strap attached to an
                            “E” track. Proper load security requires two straps.




                                       6
                            Restricted Information
Trailer Damage                                                                 TD-MA-02-002




                 Our site visits reinforced the statements of Postal Service
                 employees that load securing equipment required by Postal
                 Service policy was not always used. For example, our
                 inspection of the trailer in Figure 4, revealed it was not
                 equipped with straps or shoring bars. In addition, at
                 one Postal Service facility we visited, we noted only 17 of
                 52 arriving trailers had either a safety chain or a lock as
                 required by Handbook PO-701, Fleet Management, dated
                 March 1, 1991. We also observed that many trailers had
                 only one safety strap or “E” track instead of two as required,
                 and that many trailers did not have the required safety
                 poster. Postal Service Label 62, “Safety Notice,” dated
                 August 1993, is a safety poster which explains the proper
                 method for attaching straps to “E” tracks in a typical load
                 configuration. The safety poster should be fastened to the
                 interior trailer wall. We also noted deficiencies were not
                 always recorded on a Postal Service Form 5500 Irregularity
                 Report as required by Postal Service Handbook M-22.
                 Consequently, missing equipment was not properly reported
                 and may not have been replaced. As a result of these and
                 other deficiencies we observed, many trailer doors were
                 damaged. Figure 7 is an example of damage to a trailer
                 door resulting from an improperly secured load.




                 Figure 7. Trailer door damage resulting from an improperly secured load.




                                       7
                            Restricted Information
Trailer Damage	                                                               TD-MA-02-002



Postal Service Training   Although our review revealed the Postal Service had the
and Damage Control        opportunity to reduce cost, it also revealed the Postal
Initiatives               Service had a number of positive initiatives and existing
                          management controls in place to train employees, account
                          for equipment, and consequently prevent damage. Some
                          examples include:

                          •	   Training Video – A training video developed and used
                               by the Northeast Area entitled “Shoring for Safety” uses
                               video technology to depict and explain proper load
                               securing procedures and techniques.

                          •	   Safety Posters – Safety posters developed and
                               distributed by the Postal Service, visually depict and
                               explain proper techniques for using restraining straps
                               and “E” tracks to secure mail containers and mail
                               transport equipment in a typical load configuration.
                               (See Appendix B)

                          •	   Checklists – A checklist developed by the Northeast
                               Area specifies trailer inspection sequence, and
                               documents inspection results. The checklist causes
                               personnel using it to determine and document whether
                               load securing equipment including locks, chains, straps,
                               and “E” tracks, is present and serviceable, and whether
                               trailer doors are damaged. (See Appendix C)

                          •	   Inspection Sheets – Inspection sheets developed by the
                               Northeast Area Distribution Networks Office are used to
                               inspect vehicles. The sheets cause personnel using
                               them to identify required safety equipment, determine
                               equipment serviceability, and evaluate its proper use.
                               (See Appendix D)

                          •	   Irregularity Reports –The PS Form 5500 is designed
                               and distributed by the Postal Service for use in
                               reporting deficiencies identified on checklists and
                               vehicle inspection sheets. Consequently, when
                               required equipment is reported as missing, officials can
                               take necessary action to replace it.




                                              8
                                   Restricted Information
Trailer Damage	                                                            TD-MA-02-002




Recommendations
   We recommend the vice president, Network Operations
                   Management:

                   1.	 Issue the Northeast Area video, “Shoring for Safety,” to
                       all Postal Service areas, to reinforce proper load
                       securing procedures for Postal Service personnel who
                       load and secure trailers.

                   2.	 Emphasize effective management controls, like
                       safety posters, checklists, inspection sheets, and the
                       PS Form 5500.

Management’s       Management agreed with all findings and recommendations.
Comments           They stated:

                   •	   They would provide copies of the Northeast Area video
                        to the manager, Delivery Vehicle Operations, for
                        distribution to all vehicle maintenance facilities; to all
                        terminal handling suppliers who support shared and
                        dedicated air networks; and to all distribution network
                        offices for distribution to area facilities. Management
                        also stated they would post vehicle restraining and
                        loading procedures on their web page.

                   •	   They would advise all areas by memorandum regarding
                        the importance of following loading policies and
                        guidelines, and using safety posters, checklists,
                        inspections sheets, and the irregularity report,
                        PS Form 5500.

                   In addition to agreeing with all our recommendations,
                   management stated they were developing a program on the
                   Postal Service Web that would provide management
                   information reports to measure adherence to loading and
                   restraining procedures. Specifically, they said they would
                   implement a web based information management system
                   that would allow identification of originating facilities that did
                   not properly secure loads, and allow management to
                   follow-up with facilities that did not adhere to load restraint
                   procedures. Management stated the information
                   management system would be implemented by
                   September 2002.




                                        9
                             Restricted Information
Trailer Damage                                                        TD-MA-02-002




Evaluation of    Management’s comments are responsive to our findings and
Management’s     recommendations. Management’s actions, taken or
Comments         planned, will effectively address the issues identified in this
                 report.




                                    10
                          Restricted Information
Trailer Damage                                                                TD-MA-02-002




                                     APPENDIX A
      STATISTICAL SAMPLING AND PROJECTIONS FOR TRAILER
                           DAMAGE

Purpose of the Sampling

Our objective of this review was to assess the number and cost of trailer damage
repairs. In support of this objective, the team employed a stratified sample design that
allowed statistical projection of the number and cost of trailer repairs due to damage not
associated with normal wear of the equipment.

Definition of the Audit Universe

All universe data was provided by the Office of Inspector General Computer-Assisted
Assessment Techniques team search of the Postal Service Vehicle Maintenance
Accounting System database, based on the listing for FY 2000. Trailers were grouped
into three categories defined by the model years for the trailers: (1) 1984/1987,
(2) 1991/1992, and (3) 1998.

The universe for the 1984/1987 model years consisted of 1,011 trailers in 69 vehicle
maintenance facilities and reflected a total value of scheduled maintenance and
damage repairs of $1,435,619.

The universe for the 1991/1992 model years consisted of 1,019 trailers in 74 vehicle
maintenance facilities with a total value of scheduled maintenance and damage repairs
of $1,110,919.

The universe for the 1998 model year consisted of 1,986 trailers in 85 vehicle
maintenance facilities with a total value of scheduled maintenance and damage repairs
of $1,474,342.

Sample Design and Modifications

The team used a stratified sample design with a two-stage selection of trailers within
each stratum. For the stratification, vehicle maintenance facility sites were grouped
based on the number of trailers and the grand total of scheduled and unscheduled
maintenance and repairs at the vehicle maintenance facility for FY 2000. The original
stratification included only the 1984/1987 model year trailers. When the newer trailers
were identified, additional strata were included for sites that had the new trailers but
none of the older ones.

For the 1984/1987 model year, a total of 32 vehicle maintenance facility locations were
randomly selected for review. A sample size of 26 sites was calculated based on an



                                             11
                                   Restricted Information
Trailer Damage                                                                                     TD-MA-02-002



average of about 15 trailers per site (approximately 1,042 trailers at about 70 sites) and
a desired total of about 380 trailers in the sample, to provide a two-sided 95 percent
confidence interval with approximately 4 percent precision, based on auditor
expectations of approximately a 50 percent level of compliance on one or more
attributes.1 The original stratification of the 26 sites included the allocation of 20 sites to
1 stratum and 6 to another, with 13 sites eliminated from the universe because they had
only one trailer each. The third stratum was later re-included, with an additional, 6 sites
selected. The sample selection was random within each stratum, with 20 sites from
stratum I (NI=33), 6 sites from stratum II (NII=25), and 6 sites from stratum III (NIII=13).

Table 1. Universe Count and First Stage Sample Size for 1984/87 Model Years

                                                                    Number of
                                                                      Vehicle
                                                                   Maintenance           First-Stage
            Stratum           Description                            Facilities            Sample
                I       AMOUNT ≥ $10,000                                33                    20

               II       AMOUNT <$10,000 and more                          23                   6
                        than 1 trailer

               III      AMOUNT <$10,000 and one                           13                   6
                        trailer
    Total                                                                 69                  32

The stratification as shown ensured that the strata were mutually exclusive and
collectively exhaustive, thus covering the entire population of vehicle maintenance
facilities having 1984/1987 model year trailers.

At the first stage, vehicle maintenance facilities were selected randomly within each
stratum. At the second stage, trailers were selected from those at each vehicle
maintenance facility. All trailers were selected if the number of trailers at a vehicle
maintenance facility was less than or equal to 50. If there were more than 50 trailers,
50 trailers were randomly selected by the audit team using the Excel “randbetween”
function. The resulting 1984/1987 sample included a total of 476 trailers at 32 sites.

The universe of vehicle maintenance facilities having trailers from the 1991/1992 and
1998 model years include locations not in the original stratification. For each of these
two later model years, two additional strata were added to the original three strata of
locations pertinent to the first model year. The universe size and first-stage sample size
are indicated in Tables 2 and 3 for the 1991/1992 and 1998 model years, respectively.

1
 Because we had no prior information regarding the mean and standard deviation, we were not able to calculate a
sample size specifically designed for the variables. A 4 percent precision was used in an attribute-based size
calculation because we expected to lose some precision when we worked with the variables data.



                                                       12
                                             Restricted Information
Trailer Damage                                                                 TD-MA-02-002



At the second stage, all trailers were selected if the number of trailers at a vehicle
maintenance facility was less than or equal to 50. If there were more than 50 trailers,
50 trailers were randomly selected by the audit team using the Excel ”randbetween”
function. The resulting 1991/1992 sample included a total of 450 trailers at 40 sites; the
resulting 1998 sample included a total of 812 trailers at 44 sites.


Table 2. Universe Count and First Stage Sample Size for 1991/1992 Model Years

                                                              Number of
                                                                Vehicle
                                                             Maintenance     First -Stage
          Stratum                Description                   Facilities      Sample
              I     Locations with 1984/1987 trailers             31              17
                    having repairs > $10,000
             II     Locations with 1984/1987 trailers             14              4
                    having amount < $10,000 and >one
                    1984/1987 trailer
             III    Locations with 1984/1987 trailers             9               5
                    having amount < $10,000 and only
                    one 1984/1987 trailer
             IV     Locations with 1992 trailers having           6               6
                    amount > $10,000, no 1984/1987
                    trailers
             V      Locations with 1992 trailers having           14              8
                    amount < $10,000, no 1984/1987
                    trailers
 Total                                                            74             40




                                              13
                                    Restricted Information
Trailer Damage                                                              TD-MA-02-002




     Table 3. Universe Count and First Stage Sample Size for 1998 Model Year

                                                             Number of
                                                               Vehicle
                                                            Maintenance    First-Stage
          Stratum           Range Description                 Facilities     Sample
               I  Locations with 1984/1987 trailers              29             15
                  having repairs > $10,000
              II  Locations with 1984/1987 trailers             17              3
                  having amount < $10,000 and >one
                  1984/1987 trailer
             III  Locations with 1984/1987 trailers             11              6
                  having amount < $10,000 and only
                  one 1984/1987 trailer
             IV   Locations with 1998 trailers having           11              11
                  amount > $10,000, no 1984/1987
                  trailers
             V    Locations with 1998 trailers having           17              9
                  amount < $10,000, no 1984/1987
                  trailers
 Total                                                          85              44

Statistical Projections of the Sample Data

Methodology

Sample data were projected using the combined formulas for estimation of a population
mean and total for a stratified sample, as described in Chapter 5, and a two-stage
sample, as described in Chapter 9, of Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1996.

For this analysis, damage repair costs from Order-invoice for Vehicle Repair,
PS Form 4541 were allocated into parts and labor categories according to the
proportions observed in the prior review on Trailer Lease Justification: 40 percent to
parts and 60 percent to labor for the 1984/1987 model; 41 percent to parts and
59 percent to labor for the 1991/1992 model; and 44 percent to parts and 56 percent to
labor for the 1998 model.




                                             14
                                   Restricted Information
Trailer Damage                                                                TD-MA-02-002




Results: 1984/1987 Model Years (Universe = 1,011 Trailers)

1984/1987 Damage Repair Cost
Based on direct projection of the sample results from the 1984/1987 model years, we
are 95 percent confident the total cost of trailer damage repair is $1,113,446 to
$1,273,748. The resulting projection of the damage repair cost of trailer repair is
$1,193,597 (average of $1,181 per trailer).

1984/1987 Number of Repairs
Based on direct projection of the sample results from the 1984/1987 model years, we
are 95 percent confident the total number of trailer repairs is 17,208 to 18,908. The
resulting projection of the number of damage repairs is 18,058 (average of 18 per
trailer).

Results: 1991/1992 Model Years (Universe = 1,019 Trailers)

1991/1992 Trailer Damage Repair Cost
Based on direct projection of the sample results from the 1991/1992 model years, we
are 95 percent confident the total cost of trailer damage repair is $709,641 to $931,113.
The resulting projection of the trailer damage repairs is $820,377 (average of $805 per
trailer).

1991/1992 Number of Repairs
Based on direct projection of the sample results from the 1991/1992 model years, we
are 95 percent confident the total number of trailer damage repairs is 14,121 to 17,515.
The resulting projection of the number of damage repairs is 15,818 (average of 16 per
trailer).

Results: 1998 Model Year (Universe = 1,986 Trailers)

1998 Damage Repair Cost
Based on direct projection of the sample results from the 1998 model year, we are
95 percent confident the total cost of trailer damage repair is $1,047,793 to $1,386,789.
The resulting projection of trailer damage repair cost is $1,217,291 (average of $613 per
trailer).

1998 Number of Repairs
Based on direct projection of the sample results from the 1998 model year, we are
95 percent confident the total number of trailer damage repairs is 22,149 to 26,791.
The resulting projection of the number of damage repairs is 24,470 (average of 12 per
trailer).




                                             15
                                   Restricted Information
Trailer Damage                                                                TD-MA-02-002



Overall Results: For All Three Model Years (Universe = 4,016 Trailers)

Overall Damage Repair Cost
Based on combination of the projections from all model years and damage types we
calculate a projected total cost of trailer damage repair of $3,051,831 to $3,410,699.
The resulting calculation of the cost of trailer damage repair is $3,231,265 (average of
$822 per trailer). The total cost across all damage categories is presented for
illustration only; because a singe trailer may appear in multiple damage categories, the
individual damage category projections are not strictly additive.

Overall Number of Damage Repairs
Based on direct projection of the sample results from all model years, we are 95 percent
confident the total number of trailer damage repairs is 56,025 to 60,667. The resulting
projection of the number of damage repairs is 58,346 (average of 15 per trailer).

Overall Cost of Door Damage Repairs
Because door damage repair appeared to be a major factor in damage repair costs, we
provided a separate projection for the cost of door damage repairs. Based on direct
projection of the sample results from all model years, we are 95 percent confident the
total cost of door damage repairs is $899,168 to $1,140,004 (or 27.8 percent to
35.3 percent of the overall damage repair cost). The resulting projection of the cost of
door damage repairs is $1,019,567 (average of $278 per trailer or 31.6 percent of the
overall damage repair cost).




                                             16
                                   Restricted Information
   Trailer Damage                                                                                                                    TD-MA-02-002




                       Table 4. Damage Repair Cost Projections for All Three Model Years

                                                                  Projected Cost of Damage Repair
 Work code                       1984-87k                  1991-92k                      1998k                         Total             % of Total
General                    $           58,559        $        61,916              $        60,178          $             180,653                5.8%
Body Damage                $          168,327        $        53,035              $        70,845          $             292,207                8.9%
Doors                      $          407,190        $       258,792              $       353,601          $           1,019,583               31.6%
Frame/Floor                $           88,403        $        54,963              $        98,001          $             241,367                7.9%
Running Gear               $          146,113        $        83,078              $        47,628          $             276,819                8.8%
Landing Gear               $           11,506        $         5,348              $        20,463          $              37,317                1.1%
Air System                 $           10,112        $         8,226              $         6,527          $              24,865                0.8%
Electrical                 $           59,054        $        72,352              $       155,669          $             287,075                8.0%
Tires                      $          205,921        $       186,713              $       303,078          $             695,712               22.8%
Shoring Bars               $           14,483        $        10,013              $        72,445          $              96,941                1.8%
E-track                    $           18,549        $        18,316              $        20,823          $              57,688                1.8%
Other                      $          5,380          $        7,625               $          8,033         $              21,038                0.7%
Total                      $      1,193,597          $       820,377              $      1,217,291         $           3,231,265
Bound (±)                  $          80,151         $       110,737              $       169,498          $            179,434




                                                         P ro jected C o st o f D a m ag e F Y 20 00

                      $ 1,20 0,0 00

                      $ 1,00 0,0 00
        Repair Cost




                        $ 80 0,0 00

                        $ 60 0,0 00

                        $ 40 0,0 00

                        $ 20 0,0 00

                                $0
                                                                                                                                         r
                                                     rs
                                      al




                                                             r




                                                                                                              s




                                                                                                                                k
                                                                       r


                                                                                  r


                                                                                          m




                                                                                                                        s
                                             e




                                                                                                       l
                                                                                                   ca




                                                                                                                                         e
                                                            oo


                                                                       ea


                                                                               ea




                                                                                                           re




                                                                                                                               ac
                                                                                                                      r
                                           ag
                                  er




                                                 oo




                                                                                            e




                                                                                                                                      th
                                                                                                                   Ba
                                                                                                  tri


                                                                                                           Ti
                                                                                         st
                                                            Fl


                                                                      G


                                                                              G




                                                                                                                               tr
                                en




                                                                                                                                     O
                                        am


                                                 D




                                                                                                                            E-
                                                                                      Sy


                                                                                                  ec
                                                          e/




                                                                                                                  g
                                                                 ng


                                                                              g
                               G




                                                                                                                  in
                                                                            in
                                       D




                                                         m




                                                                                                El
                                                                 ni




                                                                                     r




                                                                                                               or
                                                                        nd
                                                    a




                                                                                  Ai
                                   dy




                                                            un
                                                 Fr




                                                                                                           Sh
                                                                      La
                                 Bo




                                                           R




                                                                      T yp e o f D am ag e
                                T raile r P ro duc tio n (M ode l) Yea r:                  1 984 -87k           1 991 -92k          1 99 8k




                                                                           17
                                                                 Restricted Information
Trailer Damage                                               TD-MA-02-002




                              APPENDIX B. SAFETY NOTICE




(Source: Label 62, August 1993)




                                              18
                                    Restricted Information
Trailer Damage                                                      TD-MA-02-002



                 APPENDIX C. VEHICLE SAFETY CHECKLIST




   (Source: Northeast Area, TAN manager)




                                                     19

                                           Restricted Information
Trailer Damage                                                                                                                                      TD-MA-02-002



                                   APPENDIX D. VEHICLE SAFETY/LOAD SECURITY REVIEW
                                                                                                                                              DATE:
                                                                                                                                              ____________
                                             VEHICLE SAFETY/LOAD SECURITY REVIEW
                                              TOUR NUMBER              0700-1530                                                              DATE:
                                                                                                                                              ____________

                                                    NO. OF
                                                    STRAPS     NO. OF-    SAFETY    DOOR
                                   SCHED              OR          E        CHAIN    SAVER             LABEL 62    PROPERLY         LOCK
     2
 TO              HCR                 LV    VEH       BARS      TRACKS       REQ      REQ               SAFETY     SECURED?        APPLIED
(Destination)   Number      TRIP    TIME   SIZE      REQ         REQ        Y/N      Y/N     VAN #     NOTICE        Y/N            Y/N     COMMENTS OBSERVED




*Number of straps/bars required by                                       Van = Straight Truck              TT = Tractor Trailer             CF = Common Fleet
contract                                                                                                                                    Trailer
(Source: Northeast Area, manager, Distribution Networks)

2                      st
    Information in the 1 nine columns completed and provided to facilities by the Distribution Networks Office




                                                                                   20
                                                                         Restricted Information
Trailer Damage                                       TD-MA-02-002



                 APPENDIX E. MANAGEMENT’S COMMENTS




                                      21

                            Restricted Information
Trailer Damage                            TD-MA-02-002




                           22

                 Restricted Information
